No. 20-520

In the Supreme Court of the United States
___________________

AMERICAN ATHLETIC CONFERENCE, THE ATLANTIC
COAST CONFERENCE, THE BIG TEN CONFERENCE,
INC., THE BIG 12 CONFERENCE, INC., CONFERENCE
USA, MID-AMERICAN CONFERENCE, MOUNTAIN WEST
CONFERENCE, PAC-12 CONFERENCE, SOUTHEASTERN
CONFERENCE, SUN BELT CONFERENCE, AND WESTERN
ATHLETIC CONFERENCE,
Petitioners,
v.
SHAWNE ALSTON, ET AL.,
Respondents.
___________________

On Writ of Certiorari to
the United States Court of Appeals for the
Ninth Circuit
___________________

REPLY BRIEF FOR PETITIONERS
___________________

BRITT M. MILLER
ANDREW J. PINCUS
ANDREW S. ROSENMAN
Counsel of Record
JED W. GLICKSTEIN
CHARLES A. ROTHFELD
Mayer Brown LLP
RICHARD J. FAVRETTO
71 South Wacker Dr.
Mayer Brown LLP
Chicago, IL 60606
1999 K Street, NW
(312) 782-0600
Washington, DC 20006
(202) 263-3000
apincus@mayerbrown.com
Counsel for Petitioner The Big Ten Conference, Inc.
[Additional counsel on inside cover]

ROBERT W. FULLER, III
LAWRENCE C. MOORE, III
PEARLYNN G. HOUCK
ERIK R. ZIMMERMAN
Robinson, Bradshaw &
Hinson, P.A.
101 North Tryon St.,
Suite 1900
Charlotte, N.C. 28246
MARK SEIFERT
Seifert Law Firm
50 California St.,
Suite 1500
San Francisco, CA
94111

LEANE K. CAPPS
CAITLIN J. MORGAN
Polsinelli PC
2950 North Harwood
St., Suite 2100
Dallas, TX 75201
AMY D. FITTS
Polsinelli PC
900 West 48th Pl.,
Suite 900
Kansas City, MO 64112
Counsel for The Big 12
Conference, Inc. & Conference USA

BART H. WILLIAMS
SCOTT P. COOPER
KYLE A. CASAZZA
JENNIFER L. JONES
BENJAMIN C. BLOCK
SHAWN S. LEDINGHAM, JR.
Covington & Burling
Proskauer Rose LLP
LLP
2029
Century Park East,
One CityCenter
Suite 2400
850 Tenth St. N.W.
Washington, D.C. 20001 Los Angeles, CA 90067
Counsel for the American Counsel for Pac-12
Conference
Athletic Conference
Counsel for Southeastern
Conference

R. TODD HUNT
BENJAMIN G. CHOJNACKI
Walter Haverfield LLP
The Tower at Erieview
1301 East 9th St.,
Suite 3500
Cleveland, OH 44114
Counsel for Mid-American Conference
MERYL MACKLIN
Bryan Cave Leighton
Paisner LLP
Three Embarcadero
Center, 7th Floor
San Francisco, CA
94111
RICHARD YOUNG
BRENT E. RYCHENER
Bryan Cave Leighton
Paisner LLP
90 South Cascade Ave.,
Suite 1300
Colorado Springs, CO
80903
Counsel for Mountain
West Conference
JON BRADLEY
Bradley Devitt Haas &
Watkins, P.C
2201 Ford Street
Golden, CO 80401
Counsel for Western Athletic Conference

MARK A. CUNNINGHAM
Jones Walker LLP
201 St. Charles Ave.
50th Floor
New Orleans, LA 70170
Counsel for Sun Belt Conference
D. ERIK ALBRIGHT
GREGORY G. HOLLAND
Fox Rothschild LLP
230 North Elm St.,
Suite 1200
Greensboro, N.C. 27401
JONATHAN P. HEYL
Fox Rothschild LLP
101 North Tryon St.,
Suite 1300
Charlotte, N.C. 28246
Counsel for Atlantic
Coast Conference

CORPORATE DISCLOSURE STATEMENT
A currently accurate corporate disclosure statement is included in the petition for a writ of certiorari.

ii
TABLE OF CONTENTS
Page
CORPORATE DISCLOSURE STATEMENT ............i
TABLE OF AUTHORITIES...................................... iv
I. The NCAA eligibility rules should have been
upheld on a quick look. ......................................... 1
A. Quick-look review may be used to reject
liability. ............................................................ 2
B. The NCAA eligibility rules should have
been upheld on a quick look. ........................... 4
1. Joint action is necessary to define the
product. ....................................................... 4
2. Board of Regents dictates rejection of
liability here. .............................................. 6
3. Judicial experience militates against
liability........................................................ 8
4. History and common sense validate the
NCAA eligibility rules. ............................... 9
II. The courts below misapplied Rule of Reason
burden-shifting review........................................ 11
A. The district court effectively conducted a
less-restrictive-alternative inquiry at step
2 of the Rule-of-Reason test. ......................... 11
1. Plaintiffs offer no substantive defense of
the step 2 holding. .................................... 12
B. The courts below should have upheld the
NCAA’s rules at step 3 of the Rule-ofReason test. .................................................... 15

iii
1. Plaintiffs and the government ignore
the lower courts’ step 3 errors. ................ 16
2. The courts below should have upheld
the NCAA’s reasonable line drawing. ..... 17
3. Key elements of the district court’s
injunction were a product of its legal
errors......................................................... 20
CONCLUSION ......................................................... 23

iv
TABLE OF AUTHORITIES
Page(s)
Cases
American Needle, Inc. v. NFL,
560 U.S. 183 ............................................... 2, 4, 5, 7
Ashcroft v. Iqbal,
556 U.S. 662 (2009) .............................................. 11
Board of Trade of City of Chicago v.
United States,
246 U.S. 231 (1918) .............................................. 10
California Dental Ass’n v. FTC,
526 U.S. 756 (1999) ........................................ 2, 4, 8
Chicago Prof’l Sports Ltd. P’ship v.
National Basketball Ass’n,
95 F.3d 593 (7th Cir. 1996) .................................. 18
Continental T.V., Inc. v. GTE Sylvania,
Inc.,
433 U.S. 36 (1977) ................................................ 18
NCAA v. Board of Regents of Univ. of
Okla.,
468 U.S. 85 (1984) ...................................... 5, 6, 8, 9
Race Tires Am., Inc. v. Hoosier Racing
Tire Corp.,
614 F.3d 57 (3d Cir. 2010) ................................... 10
Texaco Inc. v. Dagher,
547 U.S. 1 (200) .................................................. 5, 6

v
Verizon Comm’cs, Inc. v. Law Offices of
Curtis V. Trinko, LLP,
540 U.S. 398 (2004) .............................................. 22
Statutes
15 U.S.C. §1 ....................................................... passim
Other Authorities
C. Scott Hemphill, Less Restrictive
Alternatives in Antitrust Law, 116
Colum. L. Rev. 927 (2016) ................................... 13
Herbert Hovenkamp, Antitrust
Balancing.Y.U. J. L. & Bus. 369
(2016) ...................................................................... 1
NCAA, Revenues and expenses of
intercollegiate athletics programs,
analysis of financial trends and
relationships 1981-1985 (Sept. 1986),
https://tinyurl.com/8k28j5wj.................................. 8
Yong Jae Ko, et al., What Motivates
Donors to Athletic Programs: A New
Model of Donor Behavior Nonprofit
and Voluntary Sector Quarterly 523
(2014) .................................................................... 21

REPLY BRIEF FOR PETITIONERS
Plaintiffs and the United States offer very different theories of the case. Plaintiffs treat this suit as a
routine conspiracy to fix the price of widgets, denying
that the NCAA’s member schools participate in a joint
venture at all. Resp. Br. 2, 19-20. The United States,
in sharp contrast, recognizes that joint action is essential if college sports are to exist, repeatedly acknowledging the “unique nature” and “unusual features” of
the college sports “product.” U.S. Br. 13, 15. But these
different starting points lead to the same erroneous
conclusion.
As the case comes to this Court, it is settled that
the preservation of amateur college sports as a unique
product is procompetitive—a conclusion unequivocally endorsed by this Court in Board of Regents, described by Professor Hovenkamp as “well-established”
(Herbert Hovenkamp, Antitrust Balancing, 12 N.Y.U.
J. L. & Bus. 369, 377 (2016)), and confirmed by the
district court’s findings below. The lines drawn by the
NCAA to preserve that product are eminently reasonable, building on and refining many decades of consistent practice. The courts below were wrong to redraw those lines.
I. The NCAA eligibility rules should have been
upheld on a quick look.
In addressing the standard of review that governs
their claim, plaintiffs repeat like a mantra that defendants seek an “antitrust exemption” or “immunity.” E.g., Resp. Br. 1, 18, 19, 21, 22, 23. But saying
something loudly does not make it so. Defendants do
not request immunity; to the contrary, they ask the
Court to apply the “quick” or “quicker” look approach

2
to the Rule of Reason that it endorsed in decisions like
American Needle and California Dental.
As for the United States, its principal reason for
rejecting a quick-look standard is that “fact-intensive
scrutiny” is the “usual approach” under the Rule of
Reason (U.S. Br. 14)—even as it acknowledges that
college sports are “unique” and “unusual.” Yet it is
those unique features that make a quick look appropriate here.
A. Quick-look review may be used to reject
liability.
Plaintiffs initially maintain that antitrust liability never may be rejected on a quick look. They contend that the quick-look doctrine is asymmetrical,
fully embracing resolution of antitrust cases “in the
twinkling of an eye,” but only to impose, and not to
turn aside, liability. Resp. Br. 33-36. See also U.S. Br.
17. This misunderstands the Rule of Reason.
To begin with, the Court already has rejected
plaintiffs’ position. In American Needle, the Court embraced the idea that a quick look may preclude liability in a closely related context: Explaining that
“[f]ootball teams that need to cooperate are not
trapped by antitrust law,” the Court specifically noted
that “the Rule of Reason may not require a detailed
analysis; it ‘can sometimes be applied in the twinkling
of an eye.’” 560 U.S. at 202, 203 (citation omitted).
Quick-look review thus does not substitute for the
Rule of Reason; it is Rule of Reason review, conducted
in the manner most appropriate in the circumstances
of the case. That is because, in resolving Sherman Act
claims, “[w]hat is required * * * is an enquiry meet for
the case, looking to the circumstances, details, and
logic of a restraint.” California Dental, 526 U.S. at

3
781. That principle applies whichever direction the review leads.
Nor do plaintiffs identify any reason why an abbreviated review is appropriate to impose, but not reject, liability. Actually, the need for mechanisms with
which to resolve antitrust cases expeditiously is greatest when liability is plainly unwarranted. Antitrust
litigation often imposes enormous burdens on defendants. See Opening Br. 19 & n.3. Where a court can be
confident in “the twinkling of an eye” that such litigation is insupportable because the challenged conduct
is procompetitive, there is a compelling reason to
avoid expensive litigation that discourages desirable
activity and, at its worst, may result in coerced settlements.
Plaintiffs, but not the United States, also insist
that the quick-look approach no longer could have any
place in this case because trial already has occurred.
Resp. Br. 22. But that contention assumes that the
lower courts’ fact-intensive application of the Rule of
Reason was error-free. It was not. See Opening Br. 3344; infra at 11-20. Rather than correct the lower
courts’ errors by engaging in an unnecessarily detailed review, this Court can, and should, give the case
a quick look. Resolving the case now on that ground
would have the additional advantage of demonstrating the proper approach to resolution of future challenges like the one here—guidance that is especially
important because there is every reason to expect that
plaintiffs otherwise will continue initiating such cases
against the NCAA in perpetuity. See Opening Br. 46.

4
B. The NCAA eligibility rules should have been
upheld on a quick look.
When plaintiffs and the United States address the
substance of the quick look, they misunderstand both
our argument and the nature of the doctrine. The appropriate review here, and the one we advocate, is not
“no look” (Resp. Br. 1), any more than this Court embraced a “no look” approach in California Dental or
American Needle. Instead, a court should give the case
sufficient scrutiny to satisfy itself that the claims appropriately may be resolved without more detailed review. Our opening brief makes that showing here: it
demonstrates that restraints are necessary if a desirable and competition-enhancing college-sports product is to exist; and that the particular restraints at issue here are a reasonable way to make that product
available. Neither plaintiffs nor the United States refutes that showing.
1. Joint action is necessary to define the
product.
This case differs from the usual price-fixing suit,
where the agreement is between entities whose only
connection is as competitors; and even from the circumstances of most joint ventures, where the defendants collaborate to achieve economies of scale or other
efficiencies. See Opening Br. 22. We therefore do not
suggest, as the United States supposes, that “the existence of a legitimate collaboration,” without more, is
“a reason not to conduct full Rule of Reason review.”
U.S. Br. 19.
This case not only “involves an industry in which
horizontal restraints on competition are essential if
the product is to be available at all” (Board of Regents,

5
468 U.S. at 101), but joint action—including agreement on the rules identifying who is permitted to play
NCAA sports—unquestionably is necessary to define
the product. That point is not debatable, and was not
questioned by the courts below, which upheld (or did
not dispute) many of the rules limiting who may play
college sports. These circumstances offer an obvious
and legitimate explanation for the joint action challenged here. It is thus beside the point that, as the
United States notes, agreements involving joint ventures typically are subject to “‘discriminating examination under the Rule of Reason’” (U.S. Br. 19); this is
not a typical joint venture agreement.
Plaintiffs’ responses also miss the mark. Although
they contend that the NCAA is not a joint venture “in
the labor markets at issue” (Resp. Br. 37), the NCAA
unquestionably is a joint venture in the only relevant
sense: the operation of a sports league where, “to preserve the character and quality of the ‘product,’ athletes must not be paid to play.” Board of Regents, 468
U.S. at 102. That NCAA member schools compete vigorously in some aspects of athletics—and, for that
matter, in their non-athletic endeavors—hardly
means that they do not engage in legitimate joint action regarding the core function of operating a sports
league. See American Needle, 560 U.S. at 202-204; cf.
Dagher, 547 U.S. at 5-7.
Nor do we say that a joint venture, even a sports
league where the contents of the governing rules
“must be agreed upon” (Board of Regents, 468 U.S. at
101), is entitled to absolute deference in defining its
product. Contra Resp. Br. 37. For example, it is possible to imagine sham arrangements where the agree-

6
ment is concocted to mask a naked restraint on competition. Cf. Dagher, 547 U.S. at 6 n.1. But the courts
below did not suggest that this is such a case—their
view was that the NCAA’s definition of amateurism is
inconsistent, not that it is pretextual—and any such
argument would be belied by the context and history
showing that the NCAA eligibility rules were created
and have been maintained for legitimate and procompetitive purposes.
2. Board of Regents dictates rejection of liability here.
Plaintiffs’ argument against quick-look review
also turns Board of Regents inside out. Plaintiffs are
correct that Board of Regents treated full Rule-of-Reason review as appropriate for the NCAA’s ancillary restraints. Resp. Br. 26-27. But the Court did not, as
plaintiffs suggest, equate full Rule-of-Reason scrutiny
with “ample latitude.” See id. at 27. The Court instead
observed that the NCAA needs “ample latitude” to
play its “critical role in the maintenance of a revered
tradition of amateurism in college sports.” 468 U.S. at
120. For that core element of the NCAA’s product, the
Court stated flatly that “athletes must not be paid,”
expressly contrasting the amateurism rules with the
telecast restraints challenged in Board of Regents,
which “do not * * * fit into the same mold” as those
“defining * * * the eligibility of participants.” Id. at
117.1
The United States is wrong to contend that the NCAA eligibility
rules are “[u]nlike the ‘core’ pricing conduct in Dagher.” U.S. Br.
21. The NCAA’s joint venture is a sports league, and the rules of
play—necessarily including those defining eligibility to play—
surely “involve[] the core activity of the joint venture itself.” 547
U.S. at 7. The government’s further contention that it would be
1

7
The Court’s discussion explicitly assumed the validity of the NCAA’s eligibility rules. And it is not just
we that say so: The courts uniformly have read
Board of Regents that way, beginning shortly after issuance with the Fifth Circuit’s decision in McCormack
and running through the Seventh Circuit’s recent
holding in Deppe. See Opening Br. 26-29.
Plaintiffs nevertheless assert that Board of Regents’ discussion of NCAA eligibility rules was dicta.
Resp. Br. 29. (Tellingly, the government makes no
such assertion. See U.S. Br. 16-17.) Yet plaintiffs do
not respond to our showing that Board of Regents’ discussion of the eligibility rules, and its contrast of those
rules with the NCAA broadcast limits, was central to
the Court’s reasoning and therefore an element of its
holding. Opening Br. 25-26.
Plaintiffs likewise are wrong to say that Board of
Regents’ analysis does not still govern, or that college
sports today bears “no resemblance” to its operation
in 1984. Resp. Br. 29-30; see U.S. Br. 17. Board of Regents applied antitrust principles that were settled
even at the time, and the Court has cited the decision
repeatedly in the intervening years as a leading Sherman Act authority, with no hint of disapproval. See,
e.g., American Needle, 560 U.S. at 192, 202. And although it is true that college sports generate substantial revenues, that also was true at the time of Board
of Regents. The single broadcast arrangement at issue
in that case involved payments exceeding $130 million
“anomalous” to treat as a core restraint an agreement that has
been found not to affect consumer demand (U.S. Br. 21) is a non
sequitur; the impact on demand has nothing to do with the quality of the restraint as an integral—that is, a “core”—part of the
venture’s joint activity.

8
(see 468 U.S. at 93)—well over $300 million in 2021
dollars—and NCAA sports generated revenues exceeding $1 billion that year. See NCAA, Revenues and
expenses of intercollegiate athletics programs, analysis
of financial trends and relationships 1981-1985, at 21
(Sept. 1986), https://tinyurl.com/8k28j5wj. The Court
therefore could not have been under the impression
when it decided Board of Regents that college sports
were played with materially different economic motivations than operate today; and plaintiffs cannot reasonably assert that the same decision that predictably
led to increased revenue is no longer valid because
revenue increased.
The great success of college sports, both before
and after Board of Regents, therefore confirms that
the NCAA and its member institutions have created a
very desirable product—demonstrating that the rules
establishing that product are procompetitive—but
does nothing to show that college sports have fundamentally changed in character during the intervening
years.
3. Judicial experience militates against
liability.
We showed in our opening brief that judicial experience can support “a confident conclusion about the
principal tendency of a restriction.” California Dental,
526 U.S. at 781; see Opening Br. 26-29. Plaintiffs do
not deny that is so, and also do not deny that resolution of a case on a quick look may be appropriate when
“analyses in case after case reach identical conclusions.” California Dental, 526 U.S. at 781. Nor do they
dispute that we have just such experience here, where
for 30 years every decision to address NCAA eligibility
rules outside of the Ninth Circuit has upheld them.

9
Plaintiffs simply urge the Court to disregard this body
of law as resting on “out-of-date NCAA mythology,”
even though one these decisions is fewer than three
years old. Resp. Br. 31.
But this contention assumes its conclusion. What
plaintiffs label “mythology,” courts have identified as
real-world experience showing that NCAA eligibility
rules are procompetitive. That multiple courts independently have reached this conclusion provides confidence that the NCAA eligibility rules are procompetitive. For its part, the United States disregards this
consideration altogether.
4. History and common sense validate the
NCAA eligibility rules.
Finally, and perhaps most fundamentally, neither
plaintiffs nor the United States has anything to say
about the common sense of the matter—that is, about
the circumstances surrounding the development and
century-long maintenance of amateur college sports,
or about the practical considerations that must animate the operation of a college sports league.
Plaintiffs notably do not deny that the NCAA’s
predecessor organization announced the no pay-toplay amateurism principle, not as a money-saving
conspiracy, but to root out abuses in college sports;
that amateurism continued as the defining characteristic of college sports over succeeding generations; or
that athletics has long been part of colleges’ legitimate
educational mission. Nor do plaintiffs say that this
Court was wrong, nearly 80 years after the amateurism principle was first announced, to embrace the
“revered tradition of amateurism in college sports.”
Board of Regents, 468 U.S. at 120.

10
At the same time, plaintiffs also do not deny that
participants in a sports league must agree on jointly
adopted rules that govern the league’s operation. And
they do not contend that a league based on amateurism necessarily is illegitimate; they hardly could,
given this Court’s statements praising amateurism in
Board of Regents and the finding below that colleges
may jointly preclude payments to student-athletes
that are “unrelated to education.” So necessarily, as
the case comes to this Court, plaintiffs’ contention is
simply that the NCAA drew the amateurism line in
the wrong place.
***
These considerations all demonstrate that the
“circumstances, details, and logic” of the eligibility
rules support a finding that the rules are procompetitive. The agreement challenged here, governing conduct where joint action is unavoidable, concerns the
sort of arrangement that this Court has said could be
assumed to be procompetitive. It makes possible a valuable and integral component of a broader educational enterprise.2 And it cannot fairly be characterized as having been commenced “on bad faith or [as]
* * * otherwise nonsensical.” Race Tires America, 614

We agree that “petitioners’ educational mission” does not offer
antitrust immunity. U.S. Br. 22. But our recognition that amateurism rules advance legitimate educational purposes is relevant to the determination whether the rules have anticompetitive tendencies. “The history of the restraint, the evil believed to
exist, the reason for adopting the particular remedy, the purpose
or end sought to be attained, are all relevant facts” in Sherman
Act cases because “knowledge of intent may help the court to interpret facts and to predict consequences.” Board of Trade of City
of Chicago v. United States, 246 U.S. 231, 238 (1918).
2

11
F.3d at 81. When the Court “draw[s] on its judicial experience and common sense” (Ashcroft v. Iqbal, 556
U.S. 662, 679 (2009)), those considerations should
lead it to reject the antitrust challenge in this case “in
the twinkling of an eye.”
II. The courts below misapplied Rule of Reason
burden-shifting review.
Rule of Reason review can take a variety of forms,
from a “quick look,” to a more robust “quicker look,” to
cases where three-step burden-shifting is appropriate.
Opening Br. 21-22. Here, the courts below took the
most intrusive approach—and still got the answer
wrong. They invoked the Rule of Reason to rewrite
NCAA rules that draw reasonable lines to effectuate
procompetitive purposes. Plaintiffs and the United
States offer very different defenses of that judgment,
but both embrace the wrong legal standard and disregard or mischaracterize what actually happened in
the lower courts. Accordingly, if the Court moves beyond a quick look to fuller Rule of Reason review, it
still should reverse the judgment below.
A. The district court effectively conducted a lessrestrictive-alternative inquiry at step 2 of the
Rule-of-Reason test.
In our opening brief, we explained how the lower
courts erred in their application of the Rule of Reason’s step 2 inquiry. At that stage, defendants had the
burden of showing that the NCAA rules, as they currently exist, are procompetitive. The courts below
found that defendants made that showing because differentiating college from professional sports—as the
NCAA rules prohibiting pay unquestionably do—is
procompetitive. The district court was wrong to go further at step 2 by obligating the defendants to prove

12
that the same procompetitive benefits could not be obtained from less restrictive rules. See Opening Br. 3438. The responses to this point offered by plaintiffs
and the United States are deeply confused.
1. Plaintiffs offer no substantive defense
of the step 2 holding.
Plaintiffs’ response is entirely semantic. Plaintiffs
say that the district court considered the NCAA rules
“in the aggregate,” not “one by one,” and therefore recognize that the question is whether that body of rules
is procompetitive. Resp. Br. 41. Plaintiffs also
acknowledge that the courts below did find the rules
to be procompetitive, recognizing that “the district
court was willing to ‘credit[] the importance to consumer demand of maintaining a distinction between
college sports and professional sports.’” Id. at 32 (quoting NCAA Pet. App. 21a).
Plaintiffs nevertheless insist that the district court
was right to go further at step 2, determining that the
NCAA rules are too restrictive, because: (1) those
rules have “abandoned any coherent definition of amateurism”; and (2) although the court could have
stopped its step 2 analysis upon finding the rules incoherent, the court “threw [defendants] a step-2 lifeline” by finding it procompetitive to distinguish college from professional sports. Resp. Br. 42 (quoting
NCAA Pet. App. 92a). These assertions are either beside the point or meaningless.
Even assuming that the NCAA’s definition of amateurism has inconsistencies,3 the dispositive consideration at step 2 is that the district court found the
In fact, that assertion is wrong. That students should not be
paid to play has been, and remains, the controlling principle of
3

13
NCAA rules prohibiting pay to be procompetitive. Any
inquiry into whether those rules really could be narrowed while fully preserving demand for the collegesports product should have been made at step 3, with
the burden on plaintiffs. And having found the NCAA
eligibility rules to be procompetitive, throwing defendants a “lifeline” wasn’t a matter of optional grace on
the district court’s part; restrictions either are or
aren’t procompetitive, and if they are—as the courts
below found the NCAA’s rules to be here—step 2 is
satisfied as a matter of law.
Plaintiffs also are wrong when they insist that the
courts below did not make defendants’ burden more
difficult than it should have been at step 2. Resp. Br.
44. Burdens of proof and persuasion have real impact,
and are placed where they are for a purpose. In the
Rule-of-Reason inquiry, those burdens are assigned to
avoid giving defendants the impossible obligation to
anticipate and refute hypothetical less restrictive alternatives. See C. Scott Hemphill, Less Restrictive
Alternatives in Antitrust Law, 116 Colum. L. Rev. 927,
979-80 (2016). The decisions below did that here, effectively requiring defendants to prove that the district court’s novel definition would not be virtually as
NCAA sports. The asserted incoherence of the rules stems from
the unavoidable reality that reasonable people can disagree on
where to draw the amateurism lines, where amateur studentathletes properly receive payments for legitimate educational
and athletic expenses, and where the NCAA has tried to respond
as appropriate to changing circumstances. See Opening Br. 5-7.
We note that the United States has not accused the NCAA of incoherence in its definition of amateurism, instead recognizing,
with evident approval, that “the NCAA and its member schools
have long marketed student-athletes’ amateur status as an essential attribute of intercollegiate sports.” U.S. Br. 15.

14
effective as the existing eligibility rules in preserving
consumer demand for NCAA sports. See Opening Br.
37-39.
The United States makes a very different step 2
argument. It says that the courts below did review
the NCAA restrictions rule by rule, reporting that the
district court found some, but not all, of the rules to be
procompetitive. U.S. Br. 22-24; see id. at 27. The rules
that survived this step 2 review, the United States
continues, moved on to step 3. Id. at 29-30. This recalibration of plaintiffs’ argument, however, requires the
United States to engage in gymnastics that would
make antitrust doctrine incoherent.
First, the United States is wrong when it says
that NCAA eligibility rules were appropriately considered rule-by-rule at step 2 after those rules had been
considered as a group at step 1. U.S. Br. 27-28. That
approach allows for a bizarre and asymmetrical mismatch, permitting a court to hold particular restraints
individually invalid at step 2 because not shown to be
procompetitive, even though those same individual restraints had not been established at step 1 to have
substantial anticompetitive effects. And that, in fact,
is what the United States says happened here; the
government recognizes that the district court conducted the step 1 inquiry in the aggregate (see U.S.
Br. 27 n.8; see also Opening Br. 34-35), even as, in the
United States’ telling, the court disaggregated the
rules at step 2.
Second, the government makes no real response
to our demonstration that the courts below effectively
conducted the less-restrictive-alternative analysis at
step 2, flipping the burden and improperly requiring
defendants to show that a less restrictive alternative

15
is not available. See Opening Br. 37-39. In arguing to
the contrary, the government says that the individual
NCAA rules shown to be procompetitive at step 2
moved on to review at step 3. U.S. Br. 29. But by purporting to find at step 2 that the NCAA rules are procompetitive only to the extent that they prevent unlimited cash payments that are unrelated to education—a distinction plaintiffs concede does not exist
within the rules (Resp. Br. 41)—the district court predetermined the outcome at step 3. An individual rule
that failed to make the grade at step 2 would never
reach step 3; and even if the rules are viewed in the
aggregate, the limits exceeding those found procompetitive at step 2 inevitably would be eliminated at
step 3 as more restrictive than necessary. The government has nothing to say about this distortion of the
Sherman Act analysis.
B. The courts below should have upheld the
NCAA’s rules at step 3 of the Rule-of-Reason
test.
In our opening brief, we also showed that the
courts below went astray at step 3 by faulting defendants for not offering evidence to disprove the effectiveness of the district court’s favored less restrictive alternative; that this error effectively subjected defendants to a least restrictive alternative requirement;
and that lines drawn by entities like sports leagues
should be upheld at step 3 when those lines are reasonable. Opening Br. 38-44. Neither plaintiffs nor the
government offers any real response to these points.

16
1.

Plaintiffs and the government ignore
the lower courts’ step 3 errors.

Plaintiffs content themselves with a conclusory
recital of the step 3 test articulated by the courts below. Resp. Br. 46. They say nothing about what the
courts actually did at step 3, the requirements the
courts imposed on defendants, or the step 3 errors
identified in our opening brief.
For its part, the government says that the step 3
holding below “followed logically from the district
court’s factual findings.” U.S. Br. 30. But as we
showed in our opening brief (at 38-39), those findings
were infected by misallocation of the burden of proof,
including the Ninth Circuit’s reliance on defendants’
failure at step 3 to “present evidence that demand
would suffer” if expanded pay-to-play is permitted—
even though plaintiffs had the burden at that stage.
Pet. App. 45a. The government ignores this point.
The government does deny that the courts below
effectively imposed a least-restrictive-alternative
standard, asserting that the rules concocted by the
courts are “substantially” less restrictive than the existing NCAA rules. U.S. Br. 31-32. But our point is
that the approach taken below has the effect of condemning NCAA rules at step 2, before the less-restrictive-alternative standard of step 3 even comes into
play. That converts the requirement into one of least
restrictive alternative. Again, the government offers
no response.
Moreover, the government’s portrayal of what
happened below is misleading, relying on what it
characterizes as “[t]he district court’s analysis of [plaintiffs’] proffered [less restrictive] alternatives.” U.S. Br.
30; see id. at 30-32. But the district court rejected the

17
alternatives proposed by plaintiffs and came up with
its own substitute, which it identified as a proposal of
plaintiffs “as modified by the court.” Pet. App. 158a.
Defendants did not learn about the possibility of this
alternative—which included, among other things, authorization of limitless paid post-eligibility internships and annual $6000 cash “academic achievement”
payments—until the district court issued its decision.
Defendants therefore never had an opportunity during the Rule-of-Reason analysis to address the alternative adopted by the district court.
2. The courts below should have upheld
the NCAA’s reasonable line drawing.
Plaintiffs and the United States also commit a
more fundamental error: they urge application of the
wrong standard at step 3.
As discussed above in connection with the “quick
look” analysis, joint action is necessary here both to
define and to produce the product. In that context,
once defendants show at step 2 that the product as so
defined is indeed procompetitive, the product should
survive at step 3 so long as the lines used to establish
that definition are reasonable. See Opening Br. 41-44.
As then-Justice Rehnquist recognized, the ultimate
question in a Rule of Reason case is one of “reasonableness,” a standard also embraced by Judge Bork and
other authorities. See Opening Br. 40-41.
That standard makes particular sense in the unusual setting here. For legitimate jointly produced
products that are defined by the governing rules,
lines must be drawn somewhere, and often can reasonably be drawn in more than one place. And it is no
answer to say that the placement of a product-defining line simply can’t be reasonable if that line could

18
have been drawn elsewhere in a manner that would
be “substantially less restrictive.” After all, determining whether a different product definition would in
fact be “substantially” less restrictive, and whether
the product as so defined would be just as effective
with the targeted segment of the market (and, indeed,
actually would be the same product), itself requires
the exercise of judgment. In such circumstances, so
long as the product is shown to have procompetitive
value, it is difficult “to perceive significant social gain
from channeling transactions into one form or another.” Continental T.V., Inc., 433 U.S. at 58 n.9.
The United States nevertheless maintains that it
is immaterial defendants here seek to market an amateur college-sports product in which the players are
not paid to play; all that matters, the government
says, is that consumers would be just as happy with a
similar product where players are paid something
(but not too much) to play. See U.S. Br. 25-26 (“what
matters for antitrust purposes is not whether the
NCAA (or its member schools or conferences) view
particular amateurism-related restrictions as integral
to the product, but whether those restrictions make
the product more attractive to consumers”). But that
isn’t so; what defendants want to sell does matter—
so long as they have established that their preferred
amateur college-sports product is procompetitive. As
Judge Easterbrook wrote for the Seventh Circuit, “[t]o
say that participants in an organization may cooperate is to say that they may control what they make
and how to sell it.” Chicago Prof’l Sports Ltd. P’ship,
95 F.3d at 598.
Consider this example. A professional basketball
league defines its sport as having five players per

19
team on the court at a time. Would-be professional
basketball players sue the league under the Sherman
Act, arguing that professional basketball should be altered so that it is played by seven players at a time;
that modification of the game would be substantially
less restrictive, the plaintiffs argue, because it would
significantly increase the demand for inputs in the labor market for professional basketball players.
Is it conceivable that such a suit would succeed,
even if plaintiffs’ expert credibly testified that consumers would enjoy seven-player basketball just as
much as the five-player version? Surely not. Lines
must be drawn defining the sport; the lines as drawn
by the defendant basketball league create a product
that is demanded by consumers, even though consumers might like a variant of that product just as much;
and those lines are reasonable. Those factors should
mandate judgment for the basketball-league defendants—and in principle, this case is no different.4
Of course, college sports differ from our hypothetical basketball
league in one obvious respect: college athletics are defined not
only by how many players take the court at a time but by whether
those players are paid. And as the United States observes, “[f]ew
businesses could credibly assert that their products are defined
by the compensation (or lack thereof) that their workers receive,
much less that their compensation policies foster consumer demand.” U.S. Br. 15. But the United States acknowledges that
NCAA sports is that rare business, as Board of Regents recognized. That being so, the NCAA’s sports-defining eligibility rules
are identical in principle to the rules setting the number of players that take the court in our professional basketball league. The
amicus States supporting plaintiffs acknowledge that “if the restraint at issue clearly defines the actual product or service to be
marketed, then little or no additional pro-competitive justification is required and the rule of reason analysis can end.” Ariz.
Br. 16.
4

20
3.

Key elements of the district court’s injunction were a product of its legal errors.

When the government attempts to defend the district court’s creation of new categories of pay for college football and basketball players, its discussion vividly illustrates how the court’s misapplication of the
legal standard infected its ruling.
As we showed in our opening brief (at 10-11, 1718), the district court noted that the NCAA rules permit schools to offer student-athletes tokens of participation in athletics and awards for exceptional athletic
achievement, and that it is theoretically possible for a
student-athlete to receive aggregate awards of these
sorts worth approximately $6000 in a year. Because
the possibility of such payments “ha[d] not been
shown to reduce consumer demand” for college sports,
the court continued, schools also must be permitted
to make very different sorts of “academic and graduation awards” in that same amount to all student-athletes who are eligible to play college sports (Pet. App.
162a)—even though, as the Ninth Circuit acknowledged, there was no evidence in the record that any
student-athlete ever had received payments anywhere close to that amount. See id. at 47a.
The government now says that the district court’s
authorization of these annual “academic achievement” payments of almost $6000 to all student-athletes “flowed logically from the district court’s factual
findings” and that, in any event, any overreach in this
ruling could be remedied on a motion for clarification
or modification of the injunction. U.S. Br. 34-35. This
contention is wrong.

21
Given the likelihood that schools will race each
other to the bottom once universal “academic achievement” payments are authorized (see Board of Regents,
468 U.S. at 122 (White, J., dissenting)), the district
court’s injunction threatens to make pay-to-play ubiquitous in college football and basketball. Yet it hardly
“flow[s] logically” from the district court’s finding that
consumers are unbothered by very occasional awards
for exceptional athletic achievement to its conclusion
that fans would be just as indifferent to naked and
universal pay-to-play going to all players. And it
should be needless to say that the government does
not establish that the district court’s sleight-of-hand
reasoning was correct, or harmless, because defendants could ask the same district judge to modify or
clarify her initial set of mistakes.
We also showed in our opening brief that the injunction requires schools to permit post-eligibility
cash internships with no limits on pay. Opening Br.
17. The government responds “that typical paid internships for college students provide modest remuneration.” U.S. Br. 33. But that observation is circular; the change wrought by the injunction authorizes
cash payments for future internships in unlimited
amounts, which for some student-athletes will become typical.5 The government adds that, “[p]roperly
construed, the injunction does not permit schools to
award lucrative internships unrelated to educational
Answering our observation that boosters might finance such internships, the government responds that the injunction affects
only internships made available from conferences or schools.
U.S. Br. 33. But it is common for boosters to run their contributions through schools. See, e.g., Yong Jae Ko, et al., What Motivates Donors to Athletic Programs: A New Model of Donor Behavior, 43 Nonprofit and Voluntary Sector Quarterly 523 (2014).
5

22
objectives.” Id. at 34. “Educational” is not defined in
the injunction, however, so even if the government’s
ipse dixit construction of the injunction is the one intended, it offers no actual protection against pay-toplay and associated recruiting abuses.
Moreover, in rejecting the NCAA’s reasonable approach to academic achievement payments and paid
internships, the lower courts not only adopted the role
of “central planners” (Law Offices of Curtis V. Trinko,
LLP, 540 U.S. at 408), but also made inevitable unending litigation in which each expansion of benefits
supports the imposition of liability for not expanding
the benefits further, or for not having expanded them
in the past. Thus, the courts below cited the increase
to full cost of attendance (at issue in O’Bannon) as
support for the award ordered here, and the same district court has already ordered discovery to proceed in
the next such case.
Most fundamentally, the government’s discussion
confirms that the courts below went astray by failing
to defer to the NCAA’s reasonable line-drawing judgments regarding its rules prohibiting pay. Given the
long history of amateurism in college sports and the
district court’s finding that compensation limits procompetitively distinguish college from professional
athletics, it surely was reasonable for the NCAA to
conclude that its desire to authorize the occasional
rare award for exceptional athletic achievement did
not require it also to permit universal pay-to-play,
with the significant change in the character of college
athletics that such a revision necessarily would entail.
And given that the government itself recognizes that
“highly lucrative post-eligibility internships” are

23
problematic, it also was reasonable for the NCAA to
impose prophylactic rules precluding such payments.
That should have been the end of the inquiry.
Plaintiffs’ and the government’s much more intrusive
approach invites litigation and arbitrary decisions,
will lead to false Sherman Act positives, and encourages judges to make technical decisions that are well
beyond their expertise—all without making a substantial addition to competition or consumer welfare.
CONCLUSION
The judgment of the court of appeals should be reversed.
Respectfully submitted.
BRITT M. MILLER
ANDREW S. ROSENMAN
JED W. GLICKSTEIN
Mayer Brown LLP
71 South Wacker Dr.
Chicago, IL 60606
(312) 782-0600

ANDREW J. PINCUS
Counsel of Record
CHARLES A. ROTHFELD
RICHARD J. FAVRETTO
Mayer Brown LLP
1999 K Street, NW
Washington, DC 20006
(202) 263-3000
apincus@mayerbrown.com

Counsel for The Big Ten Conference, Inc.

[Additional counsel on following pages]
MARCH 2021

24
ROBERT W. FULLER, III
LAWRENCE C. MOORE, III
PEARLYNN G. HOUCK
ERIK R. ZIMMERMAN
Robinson, Bradshaw &
Hinson, P.A.
101 North Tryon St.,
Suite 1900
Charlotte, N.C. 28246
MARK SEIFERT
Seifert Law Firm
50 California St.,
Suite 1500
San Francisco, CA
94111

LEANE K. CAPPS
CAITLIN J. MORGAN
Polsinelli PC
2950 North Harwood
St., Suite 2100
Dallas, TX 75201
AMY D. FITTS
Polsinelli PC
900 West 48th Pl.,
Suite 900
Kansas City, MO 64112
Counsel for The Big 12
Conference, Inc. & Conference USA

BART H. WILLIAMS
SCOTT P. COOPER
KYLE A. CASAZZA
JENNIFER L. JONES
BENJAMIN C. BLOCK
SHAWN S. LEDINGHAM, JR.
Covington & Burling
Proskauer Rose LLP
LLP
2029
Century Park East,
One CityCenter
Suite 2400
850 Tenth St. N.W.
Los
Angeles, CA 90067
Washington, D.C. 20001
Counsel for the American Counsel for Pac-12
Conference
Athletic Conference
Counsel for Southeastern
Conference

25
R. TODD HUNT
BENJAMIN G. CHOJNACKI
Walter Haverfield LLP
The Tower at Erieview
1301 East 9th St.,
Suite 3500
Cleveland, OH 44114
Counsel for Mid-American Conference
MERYL MACKLIN
Bryan Cave Leighton
Paisner LLP
Three Embarcadero
Center, 7th Floor
San Francisco, CA
94111
RICHARD YOUNG
BRENT E. RYCHENER
Bryan Cave Leighton
Paisner LLP
90 South Cascade Ave.,
Suite 1300
Colorado Springs, CO
80903
Counsel for Mountain
West Conference
JON BRADLEY
Bradley Devitt Haas &
Watkins, P.C
2201 Ford Street
Golden, CO 80401
Counsel for Western Athletic Conference

MARK A. CUNNINGHAM
Jones Walker LLP
201 St. Charles Ave.
50th Floor
New Orleans, LA 70170
Counsel for Sun Belt Conference
D. ERIK ALBRIGHT
GREGORY G. HOLLAND
Fox Rothschild LLP
230 North Elm St.,
Suite 1200
Greensboro, N.C. 27401
JONATHAN P. HEYL
Fox Rothschild LLP
101 North Tryon St.,
Suite 1300
Charlotte, N.C. 28246
Counsel for Atlantic
Coast Conference

